App.No._

In the
Supreme Court of the United States

United States of America

Respondent,
V.

$144,780.00 in U.S. Currency
and Nathan Duckworth

Petitioner.

CERTIFICATE OF SERVICE

The undersigned certifies that he has this day caused a copy of the foregoing to
Petitioner's Application to Extend Time to File Petition for a Writ of Certiorari to be
served upon the below-named counsel for Respondent by email and by first-class mail
postage pre-paid, and further certifies that all persons required to be served have been
served:
Colin Wood
Special Assistant United States Attorney
301 N. Main, Suite 1200
Wichita, Kansas 67202
Colin.wood@usdoj.gov
January 9, 2020

